APPENDIX

APPENDIX A
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action 19-MC-00011 (CRC)
IN RE MCNEIL AND ELLIS
PRE-FILING INJUNCTION
UNITED STATES OF AMERICA
Movant,
v.
MICHAEL B. ELLIS, ROBERT A. McNEIL
Respondents,
OPINION AND ORDER
(May 26, 2021)
Respondents Robert McNeil and Michael Ellis have
filed, or helped others file, a raft of lawsuits accusing the
Internal Revenue Service and sundry public officials of
perpetuating an illegal scheme to falsify the tax liability of
individuals who, like themselves, feel no obligation to pay
federal income taxes. Each one of these suits has been
dismissed and the dismissals have been affirmed on appeal.
In response to the barrage of filings, the Court in 2017

granted the government’s request for a pre-filing injunction.
Under the injunction, which was amended in 2018,
Respondents must obtain leave of Court to file further suits
of a similar nature. Respondents now seek permission to file
a new suit, this one against the Chief Judge of the D.C.
Circuit Court of Appeals and the Chief Justice of the United
States. Finding the proposed suit covered by the injunction,
the Court will deny leave to file. It will also deny
Respondents’ associated motions for the Court’s recusal and
appointment of counsel.
I.

Background
On April 3,2018, the Court issued an Amended Pre-

Filing Injunction barring Respondents from “[f]iling, or
assisting in the filing of,” three general categories of
lawsuits without prior leave of court: first, “any civil
action ... asserting] a claim under the United States
Constitution or the Administrative Procedure Act
challenging actions taken by the Internal Revenue Service in
preparing to assess and assessing income tax liabilities
b

pursuant to 26 U.S.C. § 6020;” second, “any civil action . ..
asserting] a claim under the United States Constitution or
the Administrative Procedure Act challenging actions taken
by the Department of Justice to defend against.. . suits to
collect income tax liabilities;” and third, “any civil action . . .
asserting] claims against judicial officers . . . challenging
the merit, the substance, and/or the process of those judicial
officers’ decisions with respect to the Internal Revenue
Service’s program for preparing to assess and assessing
income tax liabilities pursuant to 26 U.S.C. § 6020(b)[.]”
See Am. Inj. at 3-4, ECF No. 35. To receive leave of court to
file any such action, Respondents are required, among other
things, to “certif[y] that the claims presented are new claims
never before raised and disposed of on the merits ... or
jurisdictional grounds by any court[.]” Id. at 4.
In the fall of 2020, Respondents filed two
duplicative filings, each styled as a “Respectful Demand
to Recuse,” Mot. for Recusal, ECF Nos. 38, 40, as well as

two additional duplicative filings, each styled as a “Status
Report and Notice,” Status Report & Notice, ECF Nos. 37,
39. In broad strokes, these four filings sought vacatur of
the Amended Injunction and this Court’s recusal from
consideration of that motion. On September 17,2020, the
Court denied the requests as squarely foreclosed by D.C.
Circuit rulings relating to this case. See Crumpacker v
Ciraolo-Klepper. 715 F. App’x 18 (D.C. Cir. 2018)
(affirming the Court’s entry of the pre-filing injunction
and the Court’s denial of Respondents’ recusal motion);
Crumpacker v. Ciraolo-Klepper. No. 17-5054, 2017 WL
4231164 (D.C. Cir. Sept. 13, 2017) (affirming the
dismissals underlying Respondents’ recusal motion); see
also Sept. 17,2020, Min. Order.
Just two weeks later, Respondents filed four more
motions: one “respectful demand/motion,” again seeking
this Court’s recusal, see Mot. for Recusal, ECF No. 42; one
“respectful demand/motion” seeking appointment of counsel

d

to certify Respondents’ recusal motion, see Mot, to Appoint
Counsel, ECF No. 43; and two substantively identical
motions seeking leave to file a new lawsuit pursuant to the
injunction, see Mot. for Order, ECF No. 41 (“First Motion
for Order”); Mot. for Order, ECF No. 44 (“Second Motion
for Order”). By Minute Order, the Court instructed the
government to respond. See Oct. 1,2020, Min. Order.
Shortly thereafter, Respondents filed a notice of an
interlocutory appeal from that Minute Order, arguing that
the Court had wrongfully “appoint[ed] [itself] free
representation” by seeking the government’s response. See
Notice of Interlocutory Appeal at 1, ECF No. 45. The Court
held the underlying motions in abeyance pending resolution
of that appeal. See Oct. 26,2020, Min. Order.
Approximately four months later, the D.C. Circuit dismissed
the appeal following Respondents’ motion to withdraw. See
In re: United States v. Ellis. No. 20-5316 (D.C. Cir.
dismissed Feb. 8, 2021).

Respondents’ motions are thus once more before this
Court.
II.

Analysis
As stated, there are four motions currently pending

before the Court: a motion for recusal, a motion for
appointment of counsel, and two applications for leave to file
a complaint pursuant to the pre-filing injunction. The Court
takes each in turn.
A. Motion for Recusal
Respondents, once again, seek recusal of the
undersigned from considering further filings on this docket.
See Mot. for Recusal at 2-6. As they did in their prior recusal
motions, Respondents argue that recusal is warranted because
this Court has colluded with other judicial officers to prevent
substantive consideration of their claims. The Court’s
response to this argument in September 2020 remains the
same today:
[T]he D.C. Circuit has already rejected
Respondents’ request to remove the Court
from administering the pre-filing injunction.
See Crumnacker v. Ciraolo-Klepper. 715
f

Fed.Appx 18 (D.C. Cir. 2018). Respondents
offer no evidence since the Circuit’s ruling
that would reasonably call the Court’s
impartiality into question or that would
demonstrate any personal bias or prejudice on
the part of the Court against them. See 28
U.S.C. §455(a), (b)(1).
Sept. 17,2020, Min. Order. The Court therefore denies the
recusal motion for the same reasons.
B. Motion for Appointment of Counsel
Relatedly, Respondents request that the Court
appoint them counsel to certify that their recusal motion
was made in good faith as required by 28 U.S.C. § 144.
See Mot. to Appoint Counsel. Respondents state that they
“are aware of the technical requirement” that a licensed
attorney certify their motion but cannot afford “to retain
any lawyer, let alone one with the courage and mental
acuity” required for the task. Id. at 1. As just explained, the
Court denies Respondents’ recusal request regardless of
the lack of the statutorily required certification.
Independent consideration of the appointment request is
therefore unnecessary.

g

The Court would reject the motion on its merits in
any case. Among other things, courts evaluating a request for
appointment of counsel to parties proceeding in forma
pauperis consider the “[njature and complexity of the
action[,]” the “[potential merit of the pro se party’s
claims[,] ... and the degree to which the interest of justice
will be served by the appointment of counsel[.]” LCvR
83.11(b)(3). Each of these factors cuts decidedly against
Respondents. For starters, Respondents have neither sought
nor obtained in forma pauperis status. Additionally,
Respondents’ recusal motion lacks both merit and
complexity—the motion is, after all, premised on the exact
argument that was rejected by this Court just two weeks
before they filed the present motion. Finally, it would not
serve the interests of justice to appoint Respondents counsel
on this issue, which has already been litigated on multiple
occasions.

h

C. Motions for Leave to File
Finally, Respondents file two duplicative
applications for leave to file a lawsuit pursuant to the
Amended Injunction. See First Motion for Order; Second
Motion for Order. In the applications, Respondents propose
a suit naming Chief Judge Srinivasan and Chief Justice
Roberts in their personal capacities to adjudicate what they
perceive to be two “narrow questions.” First Motion for
Order at 1. The first question is whether there is a policy and
practice of appellate judges refusing to address the “merit of
EVERY issue raised on appeal by victims of complex
attorney fraud in violation of litigants’ statutory rights[.]” Id.
at 1. The second question is whether there is a “policy and
practice of appellate judges to refuse providing assistance of
counsel to victims of complex govemment-paid-attorney
fraud” in violation of due process. Id Respondents later
explain that the referenced fraud is the alleged “IRS record
falsification program.” Id at 2-3.

i

Respondents certified that these are “new” claims as
required by the Amended Injunction. At best, however, they
are thinly veiled efforts to advance the same claims that have
been lodged repeatedly by Respondents in other lawsuits. See.
e.g.. Compl.

33-35, McNeil v. Brown. No. 17-cv-2602

(D.D.C. Nov. 29,2017), ECF No. 1; Compl.

15,45-56,

McNeil v. Harvey. No. 17-cv-1720 (D.D.C. Aug. 21,2017),
ECF No. 1; Compl. ^ 94-98, Ellis v. Jackson. No. 16-cv2313 (D.D.C. Nov. 18,2016), ECF No. 1. As a result, they
are plainly barred by the Amended Injunction, which
prohibits Respondents from bringing any further claims
“against judicial officers ... challenging the merit, the
substance, and/or the process of those judicial officers’
decisions with respect to the Internal Revenue Service’s
program for preparing to assess and assessing income tax
liabilities pursuant to 26 U.S.C. § 6020(b)[.]” Am. Inj. at 4.
Accordingly, the Court denies both motions for leave
to file pursuant to the Amended Injunction.

)

III.

Conclusion
For the foregoing reasons, it is hereby
ORDERED that [41] and [44] Motion for Order is
DENIED. It is further
ORDERED that [42] Motion for Recusal is DENIED.
And it is further
ORDERED that [43] Motion to Appoint Counsel is
DENIED.

/s/ Christopher R. Cooper
CHRISTOPHER R. COOPER
United States District Judge
Date: May 26. 2021

k

